CERTIFICATE OF SERVICE
No. 20-261
Jeff Schulz and Ellen Schulz, et al.,
Petitioners,
v.
The Presbytery of Seattle, et al .,
Respondents.
I, Paul J. Zidlicky, do hereby certify that, on this second day of October, 2020,
I caused a copy and an electronic copy of the Brief of Law and Religion and
Constitutional Law Professors as Amici Curiae in Support of Petitioners in the
foregoing case to be served by first class mail, postage prepaid, and by email, on the
following parties:
STEFFEN NATHANAEL JOHNSON
Wilson Sonsini Goodrich & Rosati
1700 K Street, N.W., Fifth Floor
Washington, D.C. 20006
(202) 973-8888
sjohnson@wsgr.com
Counsel for Petitioners

ROBERT BERTELSON MITCHELL JR.
K&L Gates LLP
925 4th Avenue, Suite 2900
Seattle, WA 98104
(206) 370-7640
rob.mitchell@klgates.com
Counsel for Respondents
/s/ Paul J. Zidlicky
PAUL J. ZIDLICKY
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20009
(202) 736-8000

